                        CLOSEOUT FOR CASE M-95120045
        On 26 October 1995, OIG was informed1 of concerns related to a PI'S method of
reporting information on the Current and Pending Support (CPS) section in NSF proposals.
Specifically, a PI at an NSF grantee institution2listed his three-year continuing NSF award3 as
a one-year award without listing the subsequent out-year funding as pending or as part of the
original award in the proposal's CPS section. In addition, we were informed that an NSF
program officer: who had attempted to resolve this matter with the institution, had negative
information placed in his personnel file, which would affect his performance evaluation.

        We were told that the NSF employee contacted the PI, who told him that he had not
known including out-year funding on the CPS section for NSF awards was required. He
agreed to resubmit a proposal with a revised CPS section that included the out-year finding as
pending. The PI kept his institution informed of his-discussions with NSF. This prompted
officials at the institution to communicate with the program officer and his s ~ ~ e ~ sThe    o r . ~
institution's officials explained that the manner of reporting the out-year funding for a
continuing award by the PI in the CPS section was a procedure that the institution had
followed for years with the approval of NSF. The program officer said that he confirmed with
his own review of other proposal jackets from the institution that other PIS from the institution
had listed information in the CPS section in the same manner. The institution's officials
stated their position in a letter to NSF. "[Tlhe award [was a] continuing grant which ha[d]
been approved on scientific/technical merit for approximately 3 years... contingent on the
availability of funds."6 The letter further explained that the PI'S new award was listed in the
institution's business office as funded for one year only, "as [was] indeed the case." The
institution's position was that it did not list, as a practice, the out-year funding in continuing
grants because these had not been formally awarded and that this procedure had been standard
practice for years "with the explicit and tacit approval of NSF." The letter said that the
institution agreed to "modifL [its] practices in accordance with NSF guidance . . . ."

      The CPS form "is a model format to report all current and pending support for
ongoing projects and proposals, including subsequent funding in the case of continuing




                                            and resubmitted with changes to the CPS sections




                                         Page 1 of .2                                   M-95-45
                             CLOSEOUT FOR CASE M-95120045


grants.777The institution had been following a policy that did not identify the out-year funding
on continuing NSF awards. OIG regarded this as an administrative matter and informed the
Assistant Director, who agreed to review the matter and take appropriate actions at the
institution and within NSF.

       With respect to the NSF employee's concern about his employment record, OIG
reviewed his personnel file. We found it contained only standard information and
evaluations. No information pertaining to his involvement with the institution about this
matter was observed. There was no substance to the complainant's concerns that his
supervisor had placed negative information in his file or used this information to evaluate him
unfairly.

          This case was closed and no further action will be taken.

cc: Staff Scientist, Attorney, AIG Oversight, IG




7
    This information is in the Grant Proposal Guide (NSF 94-2) under section 8, "Current and Pending Support -
    Proposal Section G," @age 9).

                                                 Page 2 of li                                      M-95-45
